January 7, 2010

PAULA S. GARNER
SUPPLIES PORTFOLIO MANAGER

SUBJECT: Audit Report – Supplier Risk Mitigation in the Supplies Portfolio
         (Report Number CA-AR-10-003)

This report presents the results of our audit of Supplier Risk Mitigation in the Supplies
Portfolio1 (Project Number 09YG014CA000). This was a self-initiated audit to assess
U.S. Postal Service Supplies Portfolio actions to identify and mitigate risk for
commodities with a limited supplier base. The audit addresses Postal Service
operational risk. See Appendix A for additional information about this audit.

Conclusion

For the two Category Management Centers (CMC) identified as having a limited
supplier base risk, we determined that CMC personnel can be more proactive in
identifying and mitigating potential risks. Specifically, the audit found that Commodity
Strategy Sourcing Plans (CSSP) were not supported with documentation or detailed
analysis, CMC personnel did not identify limited supplier base as a risk for Information
Technology (IT mainframes, and CMC personnel did not conduct analyses of suppliers’
financial health.

Sourcing Plans Were Not Supported With Detailed Written Analysis

Supply Management officials could not provide supporting documentation or detailed
written analysis to support CSSPs beyond the minimal detail provided in CSSP
snapshots and related briefing documents. Management did not maintain
documentation and analysis due to time constraints and the general belief that
documentation was not necessary. Postal Service guidelines state that the snapshot
report should be a synopsis of the CSSP and summarize the results of the individual
parts of the CSSP.2 The CSSP template requires a description of the commodity and
its history; identification of the suppliers’ capabilities; and identification of market factors
including existing market conditions, competition, and alternatives. Because no
supporting documentation or detailed analysis is maintained to support the CSSP and

1
  The Supplies Portfolio includes the Information Technology (IT), Vehicles, and Delivery, Industrial Equipment, and
Telecommunications Category Management Centers (CMC).
2
  Supplying Principles and Practices issued May 1, 2006, and updated through July 28, 2009.
Supplier Risk Mitigation in the Supplies Portfolio                                              CA-AR-10-003



the snapshots, the Postal Service has no assurance that the CSSP and the snapshots
are based on adequate commodity analysis, or that all potential commodity and supplier
risks were analyzed and mitigated. See Appendix B for our detailed analysis of this
topic.

We recommend the Supplies Portfolio manager require all Supplies Category
Management Center managers to:

1. Ensure that each category management center prepares and maintains full
   Commodity Strategy Sourcing Plans, supported by written analysis of risk
   identification and mitigation efforts.

Limited Supplier Base Risk Not Identified and Mitigated

The CSSP snapshot information provided does not identify a limited supplier base as a
risk for the Postal Service’s sole supplier of mainframes. A limited supplier base is not
identified as a risk because the IT CMC manager believes the supplier is financially
sound and the agency could rapidly fill their position in the market should they leave. In
addition, discussions with CMC personnel indicate that a potential risk mitigation
strategy might involve increasing the use of open source code on mid-range computers,
but that strategy has not been fully developed and documented. Postal Service
guidelines state that an effective commodity strategy provides for the elimination of
unidentified risks and proactive risk management.3 Risks that may not be easily
eliminated or mitigated should be recognized and addressed when a key commodity
has a limited supplier base. Although alternative solutions may be available, potential
supply disruptions from unidentified risks could negatively impact Postal Service
operations.

The Postal Service has recently had to respond to supply chain disruption in one of its
limited supply base commodities. The supplier of the Postal Service’s long-life vehicle
frames suddenly decided to exit the market. This required the Postal Service to
purchase the supplier’s existing inventory and find other sourcing options. While the
Postal Service projects to have enough inventory to carry it through solicitation and
implementation of a new contract, the need to purchase the existing inventory and
rapidly develop and compete a solicitation was not without significant impact.

The Postal Service should not limit risk mitigation strategies to identifying potential
additional suppliers, but could include inventory management to minimize the impact of
unforeseen supply disruption. See Appendix B for our detailed analysis of this topic.




3
    Supplying Principles and Practices issued May 1, 2006, and updated through July 28, 2009.




                                                          2
Supplier Risk Mitigation in the Supplies Portfolio                                                  CA-AR-10-003



We recommend the Supplies Portfolio manager instruct the Information Technology
Category Management Center manager to:

2. Reassess the risks associated with having a limited supplier base for Information
   Technology mainframes and establish and document risk mitigation strategies to
   address those risks.

Key Suppliers’ Financial Health Risk Not Analyzed

Supply Management officials did not obtain and analyze suppliers’ financial statements,
or document other analyses of supplier financial health. The CMC managers stated that
suppliers were financially sound and they did not believe ongoing financial statement
analysis was warranted. As a result, the Postal Service supply chain could be
vulnerable to an unexpected exit or sudden change in the business of their suppliers
due to a change in suppliers’ financial status. Postal Service guidelines states that
management should conduct analyses of supplier capability before awarding a contract
to determine the supplier’s performance ability throughout the life of the contract. In
addition, a financial capability analysis aids in determining a supplier’s ability to remain
financially solvent and protects the Postal Service from poor contract performance and
risks.4 This type of analysis is important for commodities with a limited supplier base,
particularly in the current economic environment. See Appendix B for our detailed
analysis of this topic.

We recommend the Supplies Portfolio manager require all Supplies Category
Management Center managers to:

3. Establish and implement a methodology to routinely analyze, document, and monitor
   the financial health of key suppliers.

Best Practices in Private Industry Study Results

As a part of our audit, we evaluated best practices on managing risk in supply
management. We focused on those practices by best in class organizations. We found
that best in class organizations approach supply chain risk management from the
perspective of engaging in a disciplined set of steps to manage risk as a whole is the
key to being successful at it. These steps include:

          Determining critical suppliers using segmentation.
          Analyzing the suppliers’ marketplace and assessing individual suppliers.
          Defining risk performance metrics and reporting.
          Deploying risk mitigation strategies.



4
    Supplying Principles and Practices (SP&Ps) issued May 1, 2006, and updated through July 28, 2009.




                                                          3
Supplier Risk Mitigation in the Supplies Portfolio                              CA-AR-10-003



In general, we found that Supply Management policies and guidelines embrace these
concepts.
 
Management’s Comments

Management generally agreed with the intent of the findings and recommendations.
Although management indicated there was a fundamental difference of opinion as to the
amount of documentation needed for the CSSPs, they plan to enhance the use of the
CSSP through an ongoing strategic initiative that includes the development of a risk
mitigation worksheet. This strategic enhancement has a target implementation date of
May 2010. Management also stated they are in the process of further analyzing their IT
mainframe limited supplier base risk and mitigation strategies and will provide
documentation regarding those strategies by March 2010. To ensure that contracting
officers are aware of the need to monitor supplier financial health, management intends
to forward our final report to contracting officers — emphasizing this need — by
February 2010. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report. We continue to find documentation of
risk identification and mitigation strategies to be critical for commodities with a limited
supplier base, and encourage current strategic streamlining efforts to look towards
making such documentation more efficient, rather than discontinuing documentation of
key risk identification and mitigation strategies.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, director,
Supply Management, or me at (703) 248-2100.

         E-Signed by Mark Duda
    VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Joseph Corbett
    Susan Brownell
    Susan Witt
    Sally K. Haring



                                                     4
Supplier Risk Mitigation in the Supplies Portfolio                                                    CA-AR-10-003



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Supply Management works proactively with internal and external Postal Service
business partners to deliver best value solutions that are timely, cost effective, and
operationally efficient to integrate supply chains. These efforts include combining
strategic and tactical buying, supplying processes, and managing customer and supplier
relations so they further the business and competitive needs of the Postal Service.
Within Supply Management, the Supplies Portfolio meets Postal Service needs for IT,
vehicles, delivery and industrial equipment, and telecommunications through CMCs.

The CMCs develop the CSSP. The purpose of developing CSSP is to ensure the
Supply Management organizations responsible for purchasing commodities use a
systematic process for developing strategies to achieve supply chain management
goals that fully support corporate, Supply Management, and cross-functional business
objectives. It is a set of analyses that, together, support and determine the commodity
strategy, providing a basis of support for Postal Service purchasing of specific products
or services. The intended content of the CSSP includes stakeholder analysis, pricing
analysis; market research; the Strengths, Weaknesses, Opportunities, and Threats
(SWOT) analysis; and commodity strategy development. The CSSP also includes the
Commodity Sourcing Quadrant Analysis.5

Each year selected CMCs present the CSSP snapshot to the Postal Service Supply
Management Leadership Team6 to obtain concurrence with the commodity strategy.
The snapshot is a high-level synopsis of the CSSP and summarizes the results of its
individual parts.7




5
  A tool developed by the Postal Service Supply Chain Management Strategies. It provides a list of questions that
serve as the criteria for evaluating each commodity. Based on user input, the tool performs a weighted calculation to
determine the overall relative value and risk of each commodity and graphs the results on a gradated chart.
6
  The Supply Management Leadership Team includes the vice president of Supply Management, Portfolio managers,
and managers from supply management-enabling organizations.
7
  Supplying Principles and Practices issued May 1, 2006, and updated through July 28, 2009.




                                                          5
Supplier Risk Mitigation in the Supplies Portfolio                           CA-AR-10-003



OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to assess Postal Service Supplies Portfolio actions to identify and
mitigate risk for commodities with a limited supplier base and analyze best practices
and benchmark supplier risk mitigation approaches for potential use by the Postal
Service. To accomplish our objectives, we interviewed the Supplies Portfolio manager
and the IT and Vehicles CMC managers and staff to discuss current risk mitigation
strategies for commodities with limited supplier base risk.8 We reviewed CSSP
snapshots to identify commodities with a limited supplier base, individual purchase
plans, decision analysis reports, contracts and contract modifications, and national
ordering agreements and modifications. We interviewed contracting officers and market
analysts regarding market research, limited supplier base determination, commodity
price and cost analyses, and determinations of supplier financial stability. Furthermore,
we reviewed the SP&P sections relevant to our audit objectives and contracted for a
benchmarking and best practices analysis regarding supplier risk mitigation.

We conducted this performance audit from February 2009 through January 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on October 21, 2009, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

We identified one OIG report issued within the past 5 years related to this subject. The
audit, Commodity Sourcing Activities within the Automation Category Management
Center (Report Number CA-MA-07-005, dated August 2, 2007) concluded that the
Postal Service addressed the small supplier base through the CSSP, acquisition
strategy and strategic partnerships with key suppliers, semiannual meetings, and
contract protection clauses. The report did not identify any monetary impacts. The OIG
recommended other sourcing efforts such as leader company contracting to increase
the supplier base and implementation of protection clauses for Postal Service
technology rights should the Postal Service debar or suspend a supplier. Management
agreed with the findings and recommendations.




8
    Relying on only one or two suppliers for the commodity.




                                                              6
Supplier Risk Mitigation in the Supplies Portfolio                              CA-AR-10-003



                               APPENDIX B: DETAILED ANALYSIS

Sourcing Plans Were Not Supported With Detailed Written Analysis

We found that managers could not provide full CSSPs and did not maintain supporting
documentation or detailed written analysis to support the CSSP snapshots in the
Supplies Portfolio for commodities CMCs identified as having a limited supplier base.
The IT CMC manager could not provide a reason why there was no full CSSP
documentation and provided briefing documents that offered key information, but not full
analysis. The Vehicles CMC manager confirmed there was no additional information
and noted that he and his staff had detailed working knowledge of their commodity
strategy, diminishing the need to document the analysis supporting the snapshot, a one-
page document. In addition, the Vehicles CMC analyst staff stated they did not have
time to complete a detailed written analysis due to time spent on the Green Initiative
and other priorities.

The CSSP template requires descriptions of the commodity and its history, identification
of suppliers’ capabilities, and identification of the market factors including existing
market conditions, competition, and alternatives. In addition, management should
identify industry and market trends that are driving the market and document all relevant
information resulting from the benchmarking study. Furthermore, the plan should
include details on supplier involvement in the product design and supplier development
plan, if applicable. Without maintaining a full CSSP or supporting documentation or
detailed information behind the CSSP snapshots, the Postal Service has no assurance
that it is based on adequate commodity analysis, or that all potential commodity and
supplier risks were analyzed and mitigated.

Supply Management recognizes the need for a robust and well-supported commodity
strategic sourcing approach in the SP&P and in their guidance for commodity strategic
sourcing plans. Efforts are underway in Supply Chain Management Strategies to
strengthen commodity strategic sourcing activities. Those efforts include developing a
risk analysis model to incorporate into the CSSP or implement as a separate document.
Competing priorities have delayed the development of this risk model and a draft had
not yet been provided at the time of our audit.

We interviewed CMC staff and reviewed the contract files for the supplier for the
mainframe computers in the IT CMC and the supplier for vehicle parts in the Vehicles
CMCs to determine how limited supplier base risk is identified and mitigated. While
CMC officials were knowledgeable of the information regarding their respective
commodities and the snapshot, this knowledge of commodity risk was not documented
in the CSSPs. Supply Management officials explained that there was no additional
information except for the CSSP snapshot, but risk identification and mitigation would
be found in each contract file. Within the contract files, the individual purchase plans for
both suppliers reviewed identified the technical, cost, and schedule risks, but did not




                                                     7
Supplier Risk Mitigation in the Supplies Portfolio                                                   CA-AR-10-003



address the limited supplier base risk. However, we found no further documentation of
risk identification and mitigation in the contract file.

Limited Supplier Base Risk Not Identified and Mitigated

The CSSP snapshots provided for IT hardware do not reflect the limited supplier base
risk for the Postal Service’s sole supplier of mainframes. The IT CMC manager stated
that while the supplier is the only manufacturer of mainframes, he believed they would
not likely go out of business based on their financial strength. He further stated that, if
they did have financial trouble, a buyer would likely purchase the company and the
Postal Service would continue business with the new company. In addition,
conversations with the IT CMC manager and his staff indicated that the risk might be
mitigated through the use of open source code on mid-range computers; however, that
mitigation plan was not fully developed and documented.

The SP&P general practices state that an effective commodity strategy, based on the
CSSP and synopsized in the CSSP snapshot report, provides for the elimination of
unidentified risks and proactive risk management. Although alternative solutions may
be available, potential supply disruptions from unidentified risks could negatively affect
Postal Service operations as officials act reactively rather than proactively to supply
disruptions. In addition, management should recognize and address any risk that may
not be easily eliminated or mitigated when a key commodity has a limited supplier base.

We reviewed the CSSP snapshots for IT hardware and noted that the threats identified
in the SWOT analysis did not identify limited supplier base risk. Although mainframes
were rated as high risk for commodity sourcing, officials stated that a limited supplier
base risk was not listed because they do not perceive that as a risk for mainframes.
Although they did not identify the risk, officials stated they have strategies in place such
as the IT department’s disaster recovery continuity plan, use of marketing contractor
(The Gartner Group9), and moving to an open source environment with Linux.10
However, with 88 critical applications residing on mainframes, including payroll and the
product tracking system, the CMC should identify limited supplier base risk and
determine what mitigation practices, if any, should be included in the CSSP. Risk
mitigation strategies for limited supplier base need not be limited to finding new
suppliers. Documenting a supply chain disruption plan can include documenting the
current inventory management strategy and the potential platform migration strategy.




9
  The Postal Service uses the research report, which provides information on a company’s strategies and
organization; and the vendor report that provides a Gartner rating based on research, information on the company’s
marketing, market offerings, and financial information.
10
   Linux is an operating system that facilitates the transfer of applications between servers or mainframes more
easily.




                                                         8
Supplier Risk Mitigation in the Supplies Portfolio                             CA-AR-10-003



Key Suppliers’ Financial Health Risk Not Analyzed

Supply Management officials did not obtain or analyze suppliers’ financial statements.
CMC managers stated that suppliers were financially sound and they did not believe
ongoing financial statement analysis was warranted. The SP&P states that analysis of
supplier capability is conducted before contract award to determine the supplier’s
performance ability throughout the life of the contract. A financial capability analysis
aids in determining the supplier’s ability to remain financially solvent and protects the
Postal Service from poor contract performance and risks. As a result, the Postal
Service supply chain could be vulnerable to an unexpected exit or sudden change in the
business of their suppliers due to a change in the supplier’s financial status.

The contract files relevant to both the vehicles and IT commodities did not contain a
financial analysis for the suppliers reviewed. The IT CMC did obtain a marketing report
from the Gartner Group, which noted the company’s revenue and net income trends,
but did not contain a financial analysis. In addition, the Vehicles CMC manager stated
the CMC obtained and analyzed Equifax reports, which identify a company’s credit
status. Any financial concerns were reviewed with the company during quarterly
meetings. Although the vehicle parts supplier’s National Ordering Agreement file
contained an Equifax report dated June 15, 2009, there was no record of previous
Equifax reports or records of previous discussions held with the suppliers. In addition,
the Equifax report for the supplier in question showed a high-risk credit score.

Best Practices in Private Industry Study Results

We contracted with a firm to provide a report on managing risk in supply management
by best-in-class organizations. To accomplish this task, the firm performed interviews at
10 private sector companies, literature research, and benchmarking, and interviewed
company experts in the field of supply chain management. Their research suggested
the following best practices:

       Develop a holistic approach to supply chain risk management to better
        understand the vulnerabilities within the supply chain.

       Align procurement staff strategically so that more procurement and sourcing staff
        are dedicated to value-added activities (e.g., spend analysis, supplier evaluation,
        ongoing supplier performance management) and fewer to transactional functions
        (e.g., requisitioning and order processing).

       Develop processes that drive risk, allowing the supply manager to be more
        proactive rather than simply reacting to specific events.

       Foster trust and collaboration with suppliers.




                                                     9
Supplier Risk Mitigation in the Supplies Portfolio                                CA-AR-10-003



       Employ a multifunctional supply risk management team to lead efforts in
        identifying major risks, creating risk mitigation strategies, and developing tactical
        action plans when disruptions actually occur.

       Foster communication of risk management efforts so employees understand key
        principles and goals of risk management.

       Foster collaboration with key supply chain partners by proactively sharing
        information.

       Conduct market segmentation to identify suppliers most critical to strategy,
        operations, and reputation.

       Align the investment in risk management in those suppliers and supply markets
        that pose a risk to the strategic mission of the enterprise.

       Understand the supplier marketplace as well as the individual supplier.

       Combine financial data with qualitative information in order to obtain an accurate
        risk profile.

       Conduct a market analysis of each key supply market and, where appropriate,
        financial analysis of suppliers.

       Develop a robust and risk-based supplier framework that leverages self-
        reporting, financial and operational data collection, industry information, and on-
        site supplier reviews.

       Design supplier relationship management programs and reporting systems in a
        manner that encourages collaboration with suppliers both to manage risks and to
        encourage innovation and teamwork.

       Define metrics for monitoring risk that go beyond the traditional metrics for
        measuring contract compliance. These include metrics on quality, financial
        condition of supplier, technology leadership, price competitiveness, and location
        risk exposure.

       Conduct enhanced monitoring for those suppliers identified as being outside the
        risk limits.

       Foster supplier development and support programs for critical suppliers.

       Analyze supplier health over a period of time and compare it to industry
        averages.




                                                     10
Supplier Risk Mitigation in the Supplies Portfolio                           CA-AR-10-003




       Develop a business continuity plan that included the sourcing of goods from
        alternative suppliers.

We provided the full contractor report to Supply Management for consideration as they
look to further improve and strengthen their supply chain risk mitigation strategies.




                                                     11
Supplier Risk Mitigation in the Supplies Portfolio           CA-AR-10-003



                         APPENDIX C: MANAGEMENT’S COMMENTS




                                                     12
Supplier Risk Mitigation in the Supplies Portfolio        CA-AR-10-003




                                                     13
